20-6908

Supremo Court, U.S.
FILED

DEC 1 5 2020
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES
Michael Ingram El,
Petitioner,
VS.

Joe Crail; et al.,
Respondents,

On Petition for Writ of Mandamus and Writ of Prohibition
to the United States
Court of Appeals for the Ninth District and
The United States District Court for The Eastern District of California

AFFIDAVIT IN THE NATURE OF MOTION FOR LEAVE TO PROCEED IN
FORMA PA UPERIS

The petitioner asks leave to file the attached petition for a writ of mandamus and
writ of prohibition without prepayment of costs and to proceed in forma pauperis.
Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court. Petitioner’s declaration in support of this motion is
attached hereto.
I certify, affirm under the penalty of perjury under the laws of the Constitution for the United
States of America Republic that the forgoing is true, correct, complete, not misleading and not
intended to be presented for any misrepresented nor colored or improper use or purpose.
December 14,2020
Submitted by my hand, with a sound mind,
I Am:_________________
_________________________
Michael Ingram El, Consul of'fne Moroccan Empire-All rights reserved - U.C.C. 1-308, A free Moorish
America, In Full Life, In Solo Proprio, In Propria Persona Sui Juris.

IGIHAI
i

RECEIVED
DEC 2 1 2020
SUPREMEFCOUBtIk

Affidavit or Declaration of Financial Statement
IN SUPPORT OFAFFIDAVIT IN THE NATURE MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS

(Exercise of Constitution - Secured Right)
MOORISH DIVINE AND NATIONAL MOVEMENT OF THE WORLD
Aboriginal and Indigenous Natural Peoples of Northwest Amexem / North America
Notice to the agent is notice to the principle, notice to the principle is notice to the
agent. UCC 1-202

I, Michael Ingram, a Moor American national and Consul for the Living Moorish
Nation/Moroccan Empire, am the petitioner in the above-entitled case. In support of
the affidavit in the nature of motion to proceed in forma pauperis, I state that
because of the following reasons, I am unable to pay the costs of this case or to give
security therefor; and I believe that myself and the Moorish Nation are entitled to
redress.

1. The estimated average amount of money received from any sources during the
past 12 months. Is zero
2. Employment history for the past two years is: None
3.1 have no spouse
4. I have no cash nor any money in bank accounts or in any other financial
institution.
5.1 have no assets, or any ordinary household furnishings.
6. No persons, businesses, or organizations owe me any money.
7. No persons rely on me for support.

1

8.1 have no Estimated average monthly expenses.
9. I do not expect any major changes to my monthly income or expenses or in my
assets or liabilities during the next 12 months?
10. I have not paid - or will be paying - an attorney any money for services in
connection with this case, including the completion of this declaration?
11. I have not paid-or will be paying-anyone other than an attorney (such as a
paralegal or a typist) any money for services in connection with this case, including
the completion of this form?
12. Further more

Notice of Judges and Officials’ Oath - Bound Obligations and Fiduciary Duties
Article VI
“All debts contracted and engagements entered into, before the adoption of this
Constitution, shall be as valid against the United States under this Constitution, as
under the Confederation. This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all treaties made, or which shall be
made, under the authority of the United States, shall be the supreme law of the
land! and the judges in every state shall be bound thereby, anything in the
Constitution or laws of any State to the contrary notwithstanding. The Senators
and Representatives before mentioned, and the members of the several state
legislatures, and all executive and judicial officers, both of the Unit ed States and of
the several states, shall be bound by oath or affirmation, to support this
Constitution! but no religious test shall ever be required as a qualification to any
office or public trust under the United States.”
Article 1, Section X
“All debts shall be payable in gold or silver coin”
Amendment V
“No Person shall be deprived of due process of law”
I Affirm, for the Record, that I do not have, or possess, any gold or silver
coins, as prescribed by United States Constitution, which states that gold and silver
is the only lawful money.
I submit this Writ “In Forma Pauperis”, as an enjoyment and exercise of my
unconditional and Constitutionally - Secured Right (and not a feudal - fee *
burdened privilege) to Due Process of Law.

2

A demand for a “Financial Statement” is considered as an instrument to deny due
process of law and free access to the court. Such a demand is a direct violation of
“Secured Constitutional / Treaty Rights, “Stare Decisis” and a violation of “Oath of
Office”. Furthermore, there is no law prescribed in the United States Constitution,
stating that a “Financial Statement, “Financial Fee (Feudal Law)”, or a “Motion”
requesting permission must be submitted in order to exercise a Constitutional
Right. Such a demand is considered a violation of Amendment IX of the United
States Constitution and a violation of your fiduciary duties.
Amendment IX
“The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people”

Where rights secured by the Constitution are involved, there can be no rule-making or legislation, which
would abrogate them. Miranda v. Arizona 384 US436. 125•'
Officers of the Court, are bound to a solemn Oath (See Article VI) to uphold and
Support the Constitution for the United States Republic. Refusal of this ‘Affidavit of
Financial Statement’ will be construed to deny timely ‘Due Process,’ and considered
a ‘Colorable Act’ violating the exercise of a Right. Such an act is a violation of the
Official Oath of office. A violation of oath can result in additional lawful remedy
actions filed against Officers of the Court. Under Title 18 and Title 42, actions may
be taken in their official and private capacities. The Law always gives a remedy for
the people against color of law actions committed by those who violate their Oaths
of Office, colluding to abridge the Rights secured for the Natural Beings and
citizens.

I declare under penalty of perjury under the laws of the Constitution for the United
States of America Republic that the foregoing is true and correct.

Executed on December 14, 2020.

I Am:
1/
Michael Ingram El, Consul for the Moroccan Empire All rights reserved - U.C.C. 1-308, A free Moorish
America, In Full Life, In Solo Proprio, In Propria Persona Sui Juris.

3

